U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 15, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Melvin Jones v. United States, No. 20-5285
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 31, 2020.
The government’s response is now due, after one extension, on October 26, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
November 27, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5285
JONES, MELVIN LEE
USA

PATRICK L. BRYANT
ASSITANT FEDERAL PUBLIC DEFENDER
1650 KING STREET
STE. 500
ALEXANDRIA, VA 22314
703-600-0800
PATRICK_BRYANT@FD.ORG

